                                                                          FY 2011 OIG Recovery Act Plan Overview


OIG Name:                                             U.S. Small Business Administration, Office of Inspector General




                                                      The OIG has developed oversight plans for deploying additional resources to monitor, evaluate, and report on the performance and oversight of SBA's 
                                                      programs under the Act.  These new programs and program changes are inherently high risk, requiring the Agency to establish effective controls and adequate 
OIG Broad Recovery Act Goals:                         oversight.  Therefore, the OIG’s oversight efforts will focus heavily on assessing these controls and detecting and deterring fraud, waste and abuse in Recovery 
                                                      Act programs.
                                                      The OIG conducted outreach efforts to raise fraud awareness and engage industry trade groups.  Outreach efforts focused on providing SBA lenders and 
                                                      employees with information on detecting fraud patterns that have been identified in OIG loan fraud investigations through written guidance, website 
OIG Broad Training and Outreach Recovery Act Goals:   information, and presentations at trade group events, as well as notifying the public of scams.  Additionally, the OIG has posted the results of audits and other 
                                                      reviews on its Recovery Act website.  We have continued our outreach efforts in FY 2011.

                                                      The OIG has taken a number of actions to alert Agency managers of risks and recommend cost effective controls to help prevent fraud, waste, and abuse, and 
                                                      ensure program goals are achieved and stimulus funds are accurately tracked and reported.  We are continuing our reviews of SBA's of Recovery Act loans to 
                                                      determine if loans were originated, closed, liquidated and purchased in accordance with SBA's rules and regulations and commercially prudent lending 
                                                      standards.  We are also performing an audit to determin whether corrective actions were taken by SBA to mitigate risks identified for high risk lenders making 
OIG Recovery Act Risk Assessment Process:             Recovery Act loans.  Additionally, we will review SBA's implementation of its secondary market first lien 504 loan pool guarantee program under the Recovery 
                                                      Act.    As we identify risks and improper payments, we will continue to provide Agency managers with comments and recommendations for ways to mitigate 
                                                      these risks.   SBA OIG also tracks information on all hotline complaints pertaining to Recovery Act loans to assist in determining patterns and trends of 
                                                      fraudulent activity by companies and individuals awarded these loans.




OIG Recovery Act Funds:                               $10,000,000 


Expiration Date of OIG Recovery Act Funds:            September 30, 2013




OIG Recovery Act Funds Allocated to Contracts:        Yes


Purpose of Recovery Act Contracts:                    Loan reviews and financial statement audits.


Types of Recovery Act Contracts Awarded to Date:      (1) Fixed price modification of the existing financial statement audit contract and (2) fixed price contract for loan reviews awarded 12/8/2009.




Link to OIG Recovery Act Work Plan:
                                                      http://www.sba.gov/office‐of‐inspector‐general/7479




Page 1 of Overview                                                                                                                                                                                              FY 2011 Recovery Act Work Plan 5‐31‐11.xls
                                                                                                                              OIG FY 2011 Recovery Act Work Plan

                                                                                                                                                                                                                                           Review 
                                                                                                                                                                                                                                         Included on              Expected 
                                        Recovery Act Funds                                                                                                                                                                                             Expected               Expected/Final 
                                                                                Entity Performing                                                                                                                                            Prior                Quarter(s) 
      Agency      Program Area              Associated        Type of Review                               Project Title                          Background                                             Objective                                      Quarter                 Number of 
                                                                                     Review                                                                                                                                               Recovery                 Reports 
                                         w/Program Area                                                                                                                                                                                               Work Begins                Reports
                                                                                                                                                                                                                                           Act Plan                 Issued
                                                                                                                                                                                                                                            (Y/N)

                                                                                                                        The American Recovery and Reinvestment Act of 
                                                                                                                        2009 (Recovery Act) provided for many 
                                                                                                                        enhancements to SBA programs to begin 
                                                                                                                        economic recovery for our country’s small 
                                                                                                                        business sector.  The Recovery Act provided 
                                                                                                                        reduced loan fees, higher SBA guaranties on 
                                                                                                                        loans, and the creation of new SBA credit 
                 Loans and Loan                                                                                         programs.   While such changes were intended 
                                                                                                 Ongoing Reviews of                                                                   To determine if loans disbursed pursuant to the 
                   Guaranties                                                                                           to stimulate lending, the higher guaranties 
                                                                                                 Loans Made Under the                                                                 Recovery Act were originated and closed in                                   Q2 FY 11   
                 non‐tax benefit                                                 Both OIG Staff                         increased SBA's risk exposure.  Because the 
       SBA                                 $630,000,000        Performance                       American Recovery and                                                                accordance with SBA’s policies and procedures         Yes        Q1 FY 10    Q3 FY 11          3
                  programs are                                                   and Contractor                         higher guaranties reduces lender losses should 
                                                                                                 Reinvestment Act of                                                                  and to identify any evidence of suspicious                                   Q4 FY 11  
                 included in the                                                                                        loans defult, less incentive exists for lenders to 
                                                                                                 2009                                                                                 activity.
                     review                                                                                             exercise due diligence in originating loans, 
                                                                                                                        thereby increasing the risk of loan defaults.  
                                                                                                                        Additionally, SBA’s oversight may not be as 
                                                                                                                        effective in identifying red flags in loan 
                                                                                                                        applications due to public pressure to increase 
                                                                                                                        lending.  The audit will identify loans with 
                                                                                                                        origination issues that should be flagged for 
                                                                                                                        thorough review upon default.


                                                                                                                               Prior audits have been critical of the Agency's 
                                                                                                                               ability to provide adequate oversight of lenders 
                 Loans and Loan 
                                                                                                                               and have identified lender noncompliance with 
                   Guaranties                                                                                                                                                         To determine: (1) what lender risks the SBA's 
                                                                                                      SBA's Oversight of High  SBA's rules and regulations or prudent lending 
                 non‐tax benefit                                                                                                                                                      oversight process identified before and during 
       SBA                                 $630,000,000        Performance          OIG Staff          Risk Lenders Making  practices.  This audit will evaluate whether SBA's                                                              Yes        Q4 FY 10    Q4 FY 11          1
                  programs are                                                                                                                                                        the Recovery Act, and (2) whether corrective 
                                                                                                       Recovery Act Loans oversight process identified problems with high‐
                 included in the                                                                                                                                                      actions were taken to mitigate these risks. 
                                                                                                                               risk lenders, and took actions to mitigate the risk 
                     review
                                                                                                                               of loss from loans made by high‐risk lenders 
                                                                                                                               under the Recovery Act.


                                                                                                                           SBA guaranties loans that are made by 
                                                                                                                           participating lenders under a Guaranty 
                                                                                                                           Agreement to originate, service, and liquidate 
                                                                                                                           loans in accordance with SBA’s rules and 
                                                                                                                           regulations.  When a loan defaults, the lender 
                                                                                                                           can request payment of the guaranty.  SBA 
                                                                                                                           reviews loan documentation to evaluate the 
                                                                                                                           lender’s compliance with program rules and 
                 Loans and Loan                                                                                            regulations.  This review is SBA’s primary control  To determine whether purchased loans were 
                   Guaranties                                                                                              for ensuring lender compliance and preventing  originated, closed, and liquidated in accordance 
                                                                                                     Audits of Purchased                                                                                                                                           Q2 FY 11   
                 non‐tax benefit                                                                                           improper payments.  In the event of                 with SBA’s rules and regulations and 
       SBA                                 $630,000,000        Performance          OIG Staff        Loans Made Under the                                                                                                                   Yes        Q1 FY 11    Q3 FY 11          3
                  programs are                                                                                             noncompliance, SBA may be released from its         commercially prudent lending standards for 7(a), 
                                                                                                     Recovery Act                                                                                                                                                  Q4 FY 11  
                 included in the                                                                                           liability on a loan guaranty, in full or in part.   504 (including refinancing), and American 
                     review                                                                                                Previous OIG audits have identified material        Recovery Capital (ARC) loans.   
                                                                                                                           lender noncompliance in loan origination, 
                                                                                                                           closing, and liquidation that were not detected in 
                                                                                                                           SBA’s purchase review processes, resulting in 
                                                                                                                           improper payments.  Increased lending under 
                                                                                                                           the Recovery Act, combined with limited SBA 
                                                                                                                           resources and higher default rates, put the 
                                                                                                                           Agency at risk for even higher improper 
                                                                                                                           payments.




Page 2 of Work Plan                                                                                                                                                                                                                                                                      FY 2011 Recovery Act Work Plan 5‐31‐11.xls
                                                                                               OIG FY 2011 Recovery Act Work Plan


                                                                                             The Recovery Act created a new, temporary 
                                                                                             program to establish a Secondary Market 
                                                                                             Guaranty Authority for 504 loans.  Under this 
                                                                                             program, SBA will issue guaranties for the sale of 
                                                                                             first lien position loans issued by private lenders 
                                                                                                                                                  To determine whether: (1) SBA has established 
                  504 Programs                                                               under the 504 program and develop a secondary 
                                                                                                                                                  an adequate process for evaluating applications 
                 non‐tax benefit                                     SBA's Secondary Market  market for the purchase of these loans or pools 
                                                                                                                                                  for guaranties on pools of 504 first lien loans,  (2) 
       SBA        programs are        Performance       OIG Staff    First Lien Loan Pool    of loans.  This program results in SBA guaranties                                                             Yes   Q4 FY 11   Q2 FY 12   1
                                                                                                                                                  SBA’s guaranties were properly applied to 504 
                 included in the                                     Guarantee Program       of first mortgages made by private sector 
                                                                                                                                                  loans,  and (3) the pools of guaranteed loans 
                     review                                                                  lenders to small businesses.  Since these are not 
                                                                                                                                                  were sold to third party investors as required.
                                                                                             SBA delegated lenders, they are not subject to 
                                                                                             SBA’s guidance and SOPs and as a result, SBA is 
                                                                                             required to review loan documents prior to 
                                                                                             pooling.  Inadequate review by SBA prior to 
                                                                                             pooling greatly increases the risk of SBA losses.


                                                                                                                                             To determine whether: (1) SBA has adequate 
                                                                                                                                             controls in place over Recovery Act funds and 
                                                                                                                                             the Recovery Act budget process is executed in 
                                                                                                                                             accordance with Federal guidance; (2)  SBA's 
                                                                                             In conjunction with the annual financial 
                                                                     KPMG Audit of SBA's FY                                                  Office of Chief Financial Officer has established 
                                                                                             statement audit, KPMG will assess the adequacy 
                   Financial         Administrative/                 2011 Financial                                                          general ledger accounts to properly track 
       SBA                                              Contractor                           of SBA's internal controls to ensure that                                                                     Yes   Q3 FY 11   Q1 FY 12   1
                  Management           Financial                     Statements ‐ Statement                                                  recovery fund activity and has properly 
                                                                                             Recovery Act funds are properly tracked, 
                                                                     of Budgetary Resources                                                  accounted for fixed administrative costs; and (3) 
                                                                                             controlled, and reported.
                                                                                                                                             recorded spending authority from offsetting 
                                                                                                                                             collections are available for obligation and 
                                                                                                                                             referenced to the appropriate authorizing 
                                                                                                                                             legislation.
                                                                     KPMG Audit of SBA's FY 
                                                                                               In conjunction with the annual financial           To determine whether SBA has adequate 
                                                                     2011 Financial 
                   Financial         Administrative/                                           statement audit,   KPMG will assess the            accounting controls in place over loan guaranty 
       SBA                                              Contractor   Statements ‐ Credit                                                                                                                   Yes   Q3 FY 11   Q1 FY 12   1
                  Management           Financial                                               adequacy of SBA's internal controls over the loan  approvals, purchases, modifications and charge‐
                                                                     Receivables ‐ Loan 
                                                                                               guaranty process.                                  offs.
                                                                     Guaranties
                                                                                               In conjunction with the annual financial             To determine whether SBA: (1)  has a system of 
                                                                     KPMG Audit of SBA's FY 
                                                                                               statement audit, KPMG will assess the adequacy       quality controls for Recovery‐Act related 
                    Financial        Administrative/                 2011 Financial 
       SBA                                              Contractor                                                           p
                                                                                               of SBA's internal controls in place over              p
                                                                                                                                                    operational ex penses; and
                                                                                                                                                                   p      ;     ( )
                                                                                                                                                                                (2) validates the          Yes   Q
                                                                                                                                                                                                                 Q2 FY 11   Q
                                                                                                                                                                                                                            Q1 FY 12   1
                  M
                  Management           Financial
                                       Fi                            S
                                                                     Statem        O     i
                                                                            ents ‐ Operations 
                                                                                               operational expenses related to the Recovery         accuracy of accrual amounts for a sample of 
                                                                     Expenses Testwork
                                                                                               Act.                                                 expense categories.

                                                                                                                                              To determine whether: (1)  SBA has adequate 
                                                                                                                                              controls in place over Recovery Act funds and 
                                                                                                                                              the Recovery Act budget process is executed in 
                                                                                             In conjunction with the annual financial         accordance with Federal guidance; (2)  SBA's 
                                                                     KPMG Audit of SBA's FY 
                                                                                             statement audit,  KPMG will assess the adequacy  OCFO has established general ledger accounts to 
                   Financial         Administrative/                 2011 Financial 
       SBA                                              Contractor                           of SBA's internal controls to ensure that        properly track recovery fund activity and has                No    Q2 FY 11   Q1 FY 12   1
                  Management           Financial                     Statements ‐ Statement 
                                                                                             Recovery Act funds are properly tracked,         properly accounted for fixed administrative 
                                                                     of Budgetary Resources
                                                                                             controlled, and reported.                        costs; and (3) recorded spending authority from 
                                                                                                                                              offsetting collections is available for obligation 
                                                                                                                                              and referenced to the appropriate authorizing 
                                                                                                                                              legislation.

                                                                     KPMG Audit of SBA's FY 
                                                                                               In conjunction with the annual financial           To determine whether SBA has adequate 
                                                                          2011 Financial 
                   Financial         Administrative/                                           statement audit, KPMG  will assess the adequacy  accounting controls in place over loan guaranty 
       SBA                                              Contractor     Statements ‐ Credit                                                                                                                 No    Q2 FY 11   Q1 FY 12   1
                  Management           Financial                                               of SBA's internal controls over the loan guaranty  approvals, purchases, modifications and charge‐
                                                                       Receivables ‐ Loan 
                                                                                               process.                                           offs.
                                                                           Guaranties




Page 3 of Work Plan                                                                                                                                                                                                                        FY 2011 Recovery Act Work Plan 5‐31‐11.xls
                                                                                                           OIG FY 2011 Recovery Act Work Plan

                                                                                                                                                               To determine whether SBA: (1) performs internal 
                                                                                                                                                               control assessments to evaluate the risk of 
                                                                                                           In conjunction with the annual financial            waste, fraud, and/or abuse and identifies 
                                                                                  KPMG Audit of SBA's FY  statement audit,  KPMG will assess the adequacy  strategies to prevent and timely detect waste, 
                                                                                       2011 Financial      of SBA's internal controls in place over the grant  fraud, and abuse involving grants and 
                   Financial                     Administrative/ 
       SBA                                                           Contractor   Statements ‐ Operations  management/accounting processes, which will  operational expenses; (2) has a system of quality             No     Q3 FY 11    Q1 FY 12   1
                  Management                       Financial
                                                                                    and Grant Expenses  include Microloan program grants funded by the  controls for accrued grant liabilities and 
                                                                                         Testwork          Recovery Act.  We will also assess controls over  operational expenses in the financial statement 
                                                                                                           operational expenses.                               footnotes; and (3) validates the accuracy of 
                                                                                                                                                               accrual amounts for a statistical sample of grants 
                                                                                                                                                               and operational expenses.

                                                                                                          The Recovery Act established new reporting              To determine whether SBA has established a 
                                                                                                          requirements related to the award and use of            process to perform limited data quality reviews 
                                                                                  Adequacy of Controls 
                   Financial                     Administrative/                                          funds to promote transparency.  We will review          intended to identify material omissions and/or 
       SBA                                                           OIG Staff    over FY 2010 Recovery                                                                                                               No     Q1 FY11     Q2 FY 11   1
                  Management                       Financial                                              SBA’s process for monitoring recipient reporting        significant reporting errors, and notify the 
                                                                                  Act Recipient Reporting
                                                                                                          of Recovery Act funds for the year ending               recipients of the need to make appropriate and 
                                                                                                          September 30, 2010.                                     timely changes.  


                                                                                                          Under the Recovery Act, SBA received $20 
                                                                                                          million to improve, streamline, and automate 
                                                                                                          information technology systems.  Prior to August 
                                                                                                          2009, SBA had not awarded any contracts to 
                                                                                                          DRT.  However, between August 2009 and March 
                                                                                                                                                            To determine whether SBA: (1) split contract 
                                                                                                          2010, SBA issued four 8(a) sole‐source contracts 
                                                                                         Award and                                                          requirements to circumvent the $3.5 million 
                                                                                                          to DRT, totaling an estimated $8 million.  
                                                                                     Administration of                                                      statutory competition threshold for the 8(a) 
                                                 Administrative /                                         Approximately $4 million of this amount was 
       SBA            Contracts   $20,000,000                        OIG Staff    Information Technology                                                    procurement; (2) received a fair and reasonable           No   Q4 FY 11     Q3 FY 12    1
                                                    Financial                                             awarded with Recovery Act funds.  Because the 
                                                                                      Contracts to DRT                                                      price; and (3) maintained adequate contract files 
                                                                                                          contracts appear to be for related work, the 
                                                                                       Strategies, Inc.                                                     in compliance with Federal policies, guidance, 
                                                                                                          awards collectively may have exceeded the 
                                                                                                                                                            and statutory requirements.
                                                                                                          competitive threshold.  Further, we have 
                                                                                                            identified potential deficiencies within the award 
                                                                                                            process, including problems with splitting 
                                                                                                            contract requirements, price reasonableness, 
                                                                                                            and missing or incomplete contract files.


                                                                                                              Wh
                                                                                                              When acquiring a pro
                                                                                                                           ii        duct or service, the 
                                                                                                              procuring agency's contracting officers are 
                                                                                                              responsible for selecting and designating the       To determine whether: (1) procuring agencies 
                                                                                   Use of North American  proper NAICS code and size standard in Federal          are applying the proper NAICS codes to contracts 
                                                                                   Industrial Classification  solicitations that best describe the principle      (including Recovery Act contracts) for which 
                                                 Administrative /                 System (NAICS) Codes in  purpose of the requirement.  Selection of the          status as a small business is required; and (2) 
       SBA            Contracts                                      OIG Staff                                                                                                                                        No     Q3 FY 11    Q2 FY 12   1
                                                    Financial                      Awarding Recovery Act  proper NAICS code is essential to ensure the            SBA has an appropriate process in place to 
                                                                                     and Other Federal  appropriate small businesses are considered for           identify and resolve instances where agencies 
                                                                                          Contracts           contract award because SBA size standards           have not applied the proper NAICS code to their 
                                                                                                              define whether a business entity is small,  and     procurement.
                                                                                                              thus, eligible for Government programs and 
                                                                                                              preferences reserved for small businesses.  




Page 4 of Work Plan                                                                                                                                                                                                                                     FY 2011 Recovery Act Work Plan 5‐31‐11.xls
